November 17, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001

Via Electronic Filing

Re: LSP Transmission Holdings, LLC v. Katie Sieben, et al., No. 20-641
Dear Mr. Harris:
Pursuant to Rule 30.4, the State Respondents – Katie Sieben, Dan M. Lipschultz, Matthew
Schuerger, John Tuma, Valerie Means, and Steve Kelley – request a 45-day extension of time for
the parties to file a response to the petition for a writ of certiorari in this matter. A response is
currently due December 10, 2020. A 45-day extension would make a response due January 25,
2021.
The State Respondents submit that good cause exists for the extension. The State Respondents
are government officials, sued in their official capacities, in charge of two agencies – the Minnesota Public
Utilities Commission and the Minnesota Department of Commerce. Before a response is filed, it must be
reviewed and approved by both agencies, after going through internal review at the Minnesota Attorney
General’s Office. In addition, two of the named State Respondents have left office and been replaced, since
the matter was submitted to the Eighth Circuit more than a year ago. Joseph Sullivan has replaced Dan M.
Lipschultz as Vice Chair of the Public Utilities Commission, and Grace Arnold is the temporary
Commissioner of Commerce in place of Steve Kelley. These officials will take additional time to become
familiar with this matter.
Counsel for the State Respondents has conferred with counsel for Petitioner LSP Transmission
Holdings and counsel for the co-Respondents. They consent to the extension.

Sincerely,

LIZ KRAMER
Solicitor General
(651) 757-1010 (Voice)
liz.kramer@ag.state.mn.us
Counsel for the State Respondents
cc:

Counsel for LSP Transmission Holdings, via email and U.S. Mail
Counsel for ITC Midwest, LLC, via email and U.S. Mail
Counsel for Northern States Power, d/b/a Xcel Energy, via email and U.S. Mail

